CERTIFICATE OF SERVICE
NO. TBD
IN RE: I80 EQUIPMENT, LLC,
Debtor.
JEANA K. REINBOLD, NOT INDIVIDUALLY BUT SOLELY IN HER CAPACITY AS
CHAPTER 7 TRUSTEE OF THE ESTATE OF I80 EQUIPMENT, LLC,
Petitioner,
v.
FIRST MIDWEST BANK,
Respondent.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the party below with the PETITION FOR WRIT OF CERTIORARI
in the above captioned matter by mailing three (3) true and correct copies of the same by USPS Priority
mail, postage prepaid for delivery to the following address:
William J. McKenna
Foley & Lardner LLP
321 N. Clark St., Suite 2800
Chicago, IL 60654-5313
(312) 832-4541
wmckenna@foley.com
Counsel for First Midwest Bank

Lucas DeDeus

January 8, 2020

SCP Tracking: Reinbold-1100 S. 5th Street-Cover White

